No.

3fn tfje

Supreme Court of tfje fHniteii States
VERONICA V. BADESCU,
Petitioner,
v.
CATALIN S. BADESCU,
Respondent
“♦*

Certificate of Service
I, Veronica V Badescu, Pro Se Petitioner, declare
under penalty of perjury that on
April 26, 2021, as
required by Supreme Court Rule 29, I served a copy of the
enclosed PETITION FOR A WRIT OF CERTIORARI to
the opposing party via certified mail and electronic mail.
The name and address of those served are as follows^
Catalin S. Badescu, Pro Se
5843 Oldenburgh Way
Dublin, OH 43016
(401) 837-6484
stefan_badescu@msn.com
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on April 26, 2021
Veronica

SEE ATTACHED
NOTARIZATION
vwwwwwvwwwwvwwvwwwvwwwwv

V.

Badescu

ACKNOWLEDGEMENT
A notary public or other officer completing this certificate verifies only the identity of the individual who signed the document
to which this certificate is attached, and not the truthfulness, accuracy, or validity of that document.

State of California
County of Los Angeles

On

)

April 26, 2021

personallyappeared

before me

Clifton N. Star

, Notary Public,

VeronicaV. Badescu

who proved to me on the basis of satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the
within instrument and acknowledged to me that he/she/they executed the same in his/her/their authorized
capacity(ies), and that by his/her/their signature(s) on the instrument the person(s), or the entity upon behalf of which
the person(s) acted, executed the instrument.
I certify under PENALTY OF PERJURY under the laws of the State of California that the foregoing paragraph is true and
correct.
CLIFTON N^STAR * " f
Notary Public - California
Los Angeles County
Commission ff 2283133
My Comm. Expires Mar 28, 2023

|

>^
r
b

Signature:
Notary Public

(Seal)

Document Information:
Date:

April 26, 2021

Title: Certificate of Service
Notes:

0

Security seal embossed on both attached document and
this Acknowledgement form.
(REV.150504)

